Office of Audits
Report No. AUD-11-011


In-Depth Review of the Failure of
USA Bank, Port Chester, New York




                                    July 2011
                                     Executive Summary

                                     In-Depth Review of the Failure of USA Bank,
                                     Port Chester, New York
                                                                                    Report No. AUD-11-011
                                                                                                 July 2011

Why We Did The Audit

On July 9, 2010, the New York State Banking Department (NYSBD) closed USA Bank, and the FDIC
was named as receiver. On July 29, 2010, the FDIC notified the Office of Inspector General (OIG) that
USA Bank’s total assets at closing were $196.1 million and that the estimated loss to the Deposit
Insurance Fund (DIF) was $60.8 million. As of April 30, 2011, the estimated loss to the DIF had
increased to $65.2 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer
Protection Act (the Financial Reform Act). The Financial Reform Act amends section 38(k) of the
Federal Deposit Insurance Act (the FDI Act) by increasing the material loss review (MLR) threshold from
$25 million to $200 million for losses that occur for the period January 1, 2010 through December 31,
2011. Although the estimated loss for USA Bank does not meet the amended threshold requiring an
MLR, the OIG determined that there were unusual circumstances pertaining to the bank’s activities as a
de novo institution and the actions of a dominant official, and that an in-depth review (IDR) of the loss
was warranted as authorized by the Financial Reform Act.

The objectives of the review were to (1) determine the causes of USA Bank’s failure and the resulting
loss to the DIF and (2) evaluate the FDIC’s supervision of USA Bank, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act. We
focused our review on the unusual circumstances mentioned above and the FDIC’s response to them.

Background

USA Bank, headquartered in Port Chester, New York, was established as a state nonmember bank and
insured in December 2005. The bank’s approved business plan focused on residential 1-4 family and
multifamily lending. However, it deviated from that plan almost immediately after opening by initiating
mortgage-banking operations, relying on brokered deposits to fund growth, and operating multiple offices
without providing the required regulatory notice and obtaining approval for significant changes in its
operations. In late 2006, USA Bank began to focus its lending activities on commercial real estate (CRE),
including acquisition, development, and construction (ADC) projects. Within the ADC portfolio, USA
Bank engaged in speculative luxury home construction loans.

USA Bank did not have a holding company and had only one inactive subsidiary – USA MBA, Inc. – that
was established to facilitate the bank’s short-lived mortgage-banking operation. The bank’s only branch
was in Port Chester, Westchester County, New York. USA Bank operated in a competitive market place
and held a deposit market share of less than 1 percent within Westchester County. The bank’s stock was
publicly traded and was widely held, with the directors and officers controlling less than 7 percent of the
outstanding shares.

Audit Results

Causes of Failure and Loss

According to the FDIC, USA Bank failed due to inadequate oversight and failings on the part of the
Board of Directors (Board) and management and problems attributable to concentrations in ADC and
CRE lending. Poor credit administration practices and weak real estate market conditions also


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      In-Depth Review of the Failure of USA Bank,
                                      Port Chester, New York
                                                                                       Report No. AUD-11-011
                                                                                                    July 2011

contributed to the bank’s failure. Additionally, the bank experienced significant losses in its 1-4 family
mortgage portfolio, including home equity loans. Loan-related losses eroded capital and, on July 9, 2010,
the NYSBD closed the bank due to an inadequate capital position.

Soon after it was established, the bank became plagued with deficiencies stemming from the bank’s
Board and management. These deficiencies can generally be attributed to the actions of the bank’s
founder and former Chairman of the Board (COB)/Chief Executive Officer (CEO). Under the influence
of the COB/CEO, and lacking sufficient monitoring by the Board, the bank focused on CRE lending and
speculative construction loans. Ultimately, such actions led to severe asset quality issues, critically
deficient earnings, and inadequate capital.

With respect to the reasons we conducted this IDR, we determined that the bank’s deviation from its
approved business plan and the actions of a dominant official were significant factors contributing to the
failure of the bank. According to the FDIC, USA Bank exhausted a significant amount of capital in its
first year of operation due to unauthorized deviations from the bank’s business plan.

The FDIC’s Supervision of USA Bank

From the bank’s inception in December 2005 through its failure in July 2010, the FDIC and the NYSBD
jointly conducted three onsite examinations and six visitations of USA Bank. Through these supervisory
efforts, examiners identified key risks in the bank’s operations and brought these risks to the attention of
the bank’s Board and management through examination reports, other correspondence, and meetings. To
address problems identified during the December 2006 examination, the FDIC and the NYSBD
downgraded certain supervisory component ratings and the institution’s composite rating and imposed
parallel Cease and Desist Orders (C&Ds) in 2007. Further downgrades of supervisory ratings occurred in
subsequent examinations, and the bank remained under a C&D until its closure.

As it relates to the focus of our review, the FDIC and the NYSBD identified and assessed risks associated
with USA Bank’s deviation from its approved de novo business plan and the actions of its dominant
official. Moreover, as discussed later in the report, the FDIC and the NYSBD took definitive actions
related to these risks early in, and throughout, USA Bank’s existence. These actions, however, could not
sufficiently mitigate the substantial risk created by the bank’s early and unanticipated change to a focus
on ADC and CRE lending – the primary reason that USA Bank failed.

With respect to PCA, the FDIC implemented supervisory actions that were consistent with relevant
provisions of section 38.

Management Response
The Director, RMS, provided a written response, dated June 24, 2011, to a draft of the report. In its
response, RMS attributed USA Bank’s failure to inadequate Board and management oversight, weak loan
underwriting and credit administration, and an aggressive strategy centered in CRE and ADC lending.
The response reiterated statements in the report that the institution’s deviation from its approved business
plan and the actions of a dominant official were significant factors contributing to the failure. In addition,
the response described key supervisory actions, described in the report, that the FDIC and the NYSBD
took to address the bank’s weak risk management practices, including deviations from the approved
business plan and the Board’s inadequate oversight and ceding responsibility to a dominant official.



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                     In-Depth Review of the Failure of USA Bank,
                                     Port Chester, New York
                                                                                    Report No. AUD-11-011
                                                                                                 July 2011

The response stated that USA Bank’s failure demonstrates why stringent supervisory attention is needed
for de novo institutions and that the FDIC has extended the annual full-scope examination requirement for
such institutions from 3 to 7 years. According to the response, de novo business plans receive careful
analysis prior to an institution’s opening and are closely monitored against approved financial projections
throughout the 7-year period. Additionally, a financial institution letter was issued in August 2009
describing program changes for de novo institutions and warning that changes in business plans
undertaken without required approvals may subject an institution or its insiders to civil money penalties.




                                 To view the full report, go to www.fdicig.gov
                               Contents
                                                                       Page
Background                                                               2

Causes of Failure and Loss                                               3
  Deviations from Business Plan                                          3
  Dominant Official                                                      5

The FDIC’s Supervision of USA Bank                                       6
   Supervisory History                                                   7
   The FDIC’s Application Review Process                                 9
   Supervisory Response to Risks Related to USA Bank’s Deviations        9
    from Its Business Plan
  Supervisory Response to Risks Related to USA Bank’s Dominant          12
    Official
   Lessons Learned                                                      13
   Implementation of PCA                                                14

OIG Evaluation of Corporation Comments                                  16

Tables
   1. Selected Financial Information for USA Bank, 2006 to 2010          2
   2. USA Bank’s Examination History from December 2005 to July 2010     7

Appendices
  1. Objectives, Scope, and Methodology                                 17
  2. Glossary of Terms                                                  20
  3. Acronyms                                                           23
  4. Corporation Comments                                               24
Federal Deposit Insurance Corporation                                                                 Office of Audits
3501 Fairfax Drive, Arlington, Virginia 22226                                            Office of Inspector General


DATE:                                           July 11, 2011

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Risk Management Supervision


                                                /Signed/
FROM:                                           Mark F. Mulholland
                                                Assistant Inspector General for Audits

SUBJECT:                                        In-Depth Review of the Failure of USA Bank, Port Chester,
                                                New York (Report No. AUD-11-011)


The New York State Banking Department (NYSBD) closed USA Bank on July 9, 2010,
and the FDIC was named as receiver. On July 29, 2010, the FDIC notified the Office of
Inspector General (OIG) that USA Bank’s total assets at closing were $196.1 million and
that the estimated loss to the Deposit Insurance Fund (DIF) was $60.8 million. As of
April 30, 2011, the estimated loss to the DIF had increased to $65.2 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the Financial Reform Act). The Financial Reform Act amends
section 38(k) of the Federal Deposit Insurance Act (the FDI Act) by increasing the
threshold for a material loss review (MLR) from $25 million to $200 million for losses
that occur for the period January 1, 2010 through December 31, 2011. The Financial
Reform Act also requires the OIG of the applicable banking agency to review all other
losses incurred by the DIF to determine (a) the grounds identified by the state or Federal
banking agency for appointing the Corporation as receiver and (b) whether any unusual
circumstances exist that may warrant an in-depth review of the loss. Although the
estimated loss for USA Bank did not meet the threshold requiring an MLR, the OIG
determined there were unusual circumstances involving the bank’s activities as a de novo
institution and the actions of a dominant official. Accordingly, we initiated an in-depth
review (IDR) of the loss as authorized by the Financial Reform Act.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of USA Bank’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of USA Bank, including
the FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of section
38 of the FDI Act. We focused our review on the unusual circumstances mentioned
above and the FDIC’s response to them.

The report does not contain recommendations. Instead, as major causes, trends, and
common characteristics of institution failures are identified in our material loss and in-
depth reviews, we will communicate those to FDIC management for its consideration.
As resources allow, we may also conduct more comprehensive reviews of specific
aspects of the FDIC’s supervision program and make recommendations as warranted.1

Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of terms,
including material loss, the FDIC’s supervision program, and the Uniform Financial
Institutions Rating System (UFIRS), otherwise known as CAMELS ratings. Appendix 3
contains a list of acronyms. Appendix 4 contains the Corporation’s comments on a draft
of this report.


Background
USA Bank, headquartered in Port Chester, New York, was established as a state
nonmember bank and insured in December 2005. USA Bank’s approved business plan
focused on residential 1-4 family and multifamily lending. However, it deviated from
that plan almost immediately after opening. Specifically, the de novo bank deviated from
its approved 3-year business plan by initiating mortgage-banking operations, relying on
brokered deposits to fund growth, and operating multiple offices without providing the
required regulatory notice and obtaining approval for significant changes in its
operations. Further, in the fourth quarter of 2006, USA Bank began to focus its lending
activities on commercial real estate (CRE), including acquisition, development, and
construction (ADC) projects. Within the ADC portfolio, USA Bank engaged in
speculative lending in the affluent Greenwich, Connecticut, real estate market.

USA Bank did not have a holding company and had only one inactive subsidiary – USA
MBA, Inc. – that was established to facilitate the bank’s short-lived mortgage-banking
operation. The bank’s only branch was in Port Chester, Westchester County, New York.
The bank operated in a competitive market place and held a deposit market share of less
than 1 percent within Westchester County. The bank’s stock was publicly traded and was
widely held, with the directors and officers controlling less than 7 percent of the
outstanding shares.

Table 1 summarizes selected financial information pertaining to USA Bank for the period
ending March 31, 2010 and for the preceding 4 calendar years.

Table 1: Selected Financial Information for USA Bank, 2006 to 2010
    Financial Data ($000s)      Mar 2010        Dec 2009         Dec 2008        Dec 2007        Dec 2006
    Total Assets                   193,299         221,527          209,933         169,474          105,586
    Total Loans                    162,596          165,685         153,057         113,701            71,285
    Total Deposits                 189,887          192,262         169,768         122,834            78,112
    Net Income (Loss)               (2,664)        (13,368)          (2,692)         (4,316)          (4,509)
Source: Uniform Bank Performance Reports (UBPR) for USA Bank.



1
A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of the report.


                                                     2
As shown in Table 1, USA Bank was not profitable at the end of any calendar year prior
to its failure. The bank’s reported net losses can be attributed to a number of factors,
such as high overhead, including personnel expenses, associated with the institution’s
attempt to initiate a mortgage-banking operation and continuing losses in its loan
portfolio. From the time the bank opened in 2005 through its failure in 2010, earnings
were critically deficient with losses of more than $13 million as of year end 2009.


Causes of Failure and Loss
According to the FDIC, USA Bank failed due to inadequate oversight and failings on the
part of the Board of Directors (Board) and management and problems attributable to
concentrations in ADC and CRE lending. Poor credit administration practices and weak
real estate market conditions also contributed to the bank’s failure. Additionally, the
bank experienced significant losses in its 1-4 family mortgage portfolio, including home
equity loans. Loan-related losses eroded capital and, on July 9, 2010, the NYSBD closed
the bank due to an inadequate capital position.

Soon after it was established, the bank became plagued with deficiencies stemming from
the bank’s Board and management. These deficiencies can generally be attributed to the
actions of the bank’s founder and former Chairman of the Board (COB)/Chief Executive
Officer (CEO). Under the influence of the COB/CEO, and lacking sufficient monitoring
by the Board, the bank focused on CRE lending and speculative construction loans.
Ultimately, such actions led to severe asset quality issues, critically deficient earnings,
and inadequate capital.

With respect to the reasons we conducted this IDR, we determined that the bank’s
deviation from its approved business plan and the actions of a dominant official were
significant factors contributing to the failure of the bank. According to the FDIC, USA
Bank exhausted a significant amount of capital in its first year of operation due to
unauthorized deviations from the bank’s business plan.

Deviations from Business Plan

Deviations from the bank’s business plan contributed significantly to USA Bank’s
failure. Such deviations included (1) the establishment of a mortgage-banking operation
without regulatory approval, (2) excessive reliance on non-core funding sources, and
(3) a focus on ADC and CRE lending. A brief discussion of these deviations follows.

Mortgage-Banking Operation

In July 2006, the bank revised its budget to include projections relating to the formation
of a mortgage-banking operation (through the formation of USA MBA, Inc.), in which
real estate mortgages would be originated and sold in the secondary market. However,
the FDIC was neither provided with a revised budget nor notified of bank management’s
intent to establish a mortgage-banking operation. According to the FDIC, this operation



                                             3
was not approved by the FDIC and represented a major deviation from the bank’s
business plan. It also contributed to losses substantially greater than projected, resulting
in critically deficient earnings. Contributing to the bank’s poor earnings was a high level
of non-interest expense and a low net-interest margin. Notably, personnel expenses
related to the staffing of the mortgage-banking operation represented the largest segment
of USA Bank’s non-interest expenses.

Reliance on Non-Core Funding

From the onset of its operations, USA Bank relied heavily on non-core funding sources
for its operations. Such funding was not contemplated in the bank’s application for
deposit insurance and had not been approved by the FDIC as a change to the bank’s
business plan. Specifically, the Report of Investigation (ROI) prepared by the FDIC in
considering the bank’s application for federal deposit insurance stated:

       As the smallest competitor in the market, the proponents believe they can
       compete effectively for deposits by offering CD [certificates of deposit] deposit
       rates at/near top of market. However, the strategy is to acquire a broad base of
       demand accounts to lower the bank’s overall cost of funds.

According to the FDIC, bank management did not have success in attracting such core
deposits (i.e., demand accounts) and increasingly relied on non-core funding sources,
including brokered deposits, to fund asset growth. In fact, although the bank had not
projected any brokered deposits by the end of its first year of operation, such deposits
totaled $43 million (56 percent) of total deposits as of December 31, 2006.

ADC and CRE Lending

USA Bank also deviated significantly from its initial plans with respect to its lending
strategy. In its application for federal deposit insurance, USA Bank defined a lending
strategy that was heavily focused on loans secured by 1-4 family residential properties,
which were projected to represent 44 percent of the bank’s loan portfolio. However, as
of December 31, 2006 (about 1 year after the bank began operation), only $24.6 million
(34 percent) of total loans were secured by 1-4 family residential properties; whereas,
$37.4 million (52 percent) of total loans were ADC and other CRE loans, which were
projected to comprise only $9.2 million (22 percent) of total loans in USA Bank’s
application.

The bank’s growth in ADC and CRE lending increased even more significantly in 2007
and 2008. Specifically, ADC and other CRE loans totaled $79.7 million and
$110.8 million at the end of calendar years 2007 and 2008, respectively. This shift in
lending strategy had a significant negative impact on the financial condition of the bank.
Between December 2007 and March 2010, ADC and other CRE charge-offs totaled
$4.3 million, or 58 percent of the total $7.4 million in charge-offs for that period.




                                             4
Dominant Official

The de novo bank operated as a classic “one-man bank,” with the COB/CEO dominating
the bank’s affairs. The December 2006 examination report, which represented the first
full-scope examination of USA Bank, stated that the bank’s Board and management were
ineffective in identifying, measuring, monitoring, and controlling risks, and ensuring the
bank’s safe and efficient operation in complying with applicable laws and regulations.
The report noted that the Board had provided the COB/CEO with substantial latitude in
setting the direction and goals for the bank and in leading management, apparently
without adequate monitoring, evaluation, or adjustment to the processes employed or the
results achieved. Further, the report stated that the COB/CEO dominated the daily affairs
of the bank and, along with the Board, was responsible for the condition of the institution.
On April 26, 2007, the COB/CEO resigned as CEO, but remained as COB and head of
the bank’s Loan Committee until May 2, 2008.

As mentioned earlier, the bank focused its construction lending in the speculative luxury
home construction market and, according to the FDIC, such lending was initiated as a
result of the dominant official’s activities. The official was in charge of the bank’s
business development, which involved generating potential loans. In addition, as head of
the bank’s Loan Committee, the official had significant influence over the approval of
loans. This situation represented an inadequate separation of duties and allowed the
dominant official to have an inappropriate influence over the composition of USA Bank’s
loan portfolio. In fact, the loan losses that ultimately caused the bank to fail were loans
directly attributable to the official’s activities. For example, according to documentation
provided by the FDIC:

      As of the March 2009 examination, 100 percent of the $32.7 million in total
       adversely classified items was originated under the former COB/CEO.

      As of the November 2009 visitation, $46.3 million (or 74 percent) of the
       $62.9 million in total adversely classified loans with origination dates included in
       the loan write-up contained in the visitation report was originated under the
       former COB/CEO, as was $5.6 million (or 94 percent) of the $5.9 million in total
       loans classified as Loss.

      Certain loans were structured to circumvent section 103 of the New York State
       Banking Law governing the legal lending limit and resulted in $4.0 million in
       loan losses for the bank.

      The COB/CEO’s actions pertaining to two borrower relationships “displayed a
       widespread disregard for banking policies and regulatory rules and regulations
       and loan losses . . . were $1,697,687 and contributed to the failure of USA Bank.”

Following the completion of the December 2006 examination in July 2007, the FDIC
issued a Cease and Desist Order (C&D) against the bank and imposed Civil Money
Penalties (CMP) against each Board director. CMPs were imposed for violations of



                                             5
provisions in the Order granting federal deposit insurance requiring the submission of
audited bank financial statements and advance notice of plans to deviate from the
approved business plan. The December 2006 examination report states that the bank’s
Board had experienced significant dissension and turnover that resulted in essentially a
new Board – with only two original Board directors remaining. In addition, the Board
hired a new bank president in July 2007. However, the new Board and bank president
were not able to steer the bank to profitability and increasingly concentrated the bank’s
loan portfolio in higher-risk CRE and speculative construction lending, which
exacerbated the bank’s already weakened financial condition.


The FDIC’s Supervision of USA Bank
From the bank’s inception in December 2005 through its failure in July 2010, the FDIC
and the NYSBD jointly conducted three onsite examinations and six visitations of USA
Bank. Through these supervisory efforts, examiners identified key risks in the bank’s
operations and brought these risks to the attention of the bank’s Board and management
through examination reports, other correspondence, and face-to-face meetings. To
address problems identified during the December 2006 examination, the FDIC and the
NYSBD (referred to herein collectively as “the regulators”) downgraded certain
supervisory component ratings and the institution’s composite rating and imposed
parallel C&Ds in 2007. Further downgrades of supervisory ratings occurred in
subsequent examinations, and the bank remained under a C&D until its closure.

As it relates to the focus of our review, the regulators identified and assessed risks
associated with USA Bank’s deviation from its approved de novo business plan and the
actions of its dominant official. Moreover, as discussed later in the report, the regulators
took definitive actions related to these risks early in, and throughout, USA Bank’s
existence. These actions, however, could not sufficiently mitigate the substantial risk
created by the bank’s early and unanticipated change to a focus on ADC and CRE
lending – the primary reason that USA Bank failed.




                                              6
Supervisory History

Table 2 summarizes the supervisory history for USA Bank from 2005 to 2010.

Table 2: USA Bank’s Examination History from December 2005 to July 2010
       Examination
     (Visitation) and                                  Supervisory                    FDIC
                                 Regulators
    Start (Completion)                                   Ratings                Supervisory Action
            Date                                         (UFIRS)
    March 7, 2006            FDIC/NYSBD              N/A                  None.
    (Visitation)
    December 18, 2006        FDIC/NYSBD              224522/4             C&D effective
    (July 20, 2007)                                                       October 22, 2007.

                                                                          April 2008 initiation of CMPs
                                                                          against the bank’s Board and
                                                                          management.
    November 26, 2007        FDIC/NYSBD              N/A                  2007 C&D still in effect.
    (Visitation)
    February 11, 2008        FDIC/NYSBD              334532/4             2007 C&D still in effect.
    (June 30, 2008)
    November 3, 2008         FDIC/NYSBD              N/A                  2007 C&D still in effect.
    (Visitation)
    March 3, 2009            FDIC/NYSBD              454543/5             Pursued a new C&D while the
    (October 27, 2009)                                                    2007 C&D was still in effect.
    November 2, 2009         FDIC/NYSBD              N/A                  2007 C&D still in effect.
    (Visitation)
    April 5, 2010            FDIC/NYSBD              N/A                  2007 C&D still in effect.
    (Visitation)
    June 30, 2010            FDIC/NYSBD              N/A                  2007 C&D still in effect.
    (Visitation)
Source: The FDIC’s Virtual Supervisory Information on the Net (ViSION) system and examination reports
for USA Bank.

Enforcement Actions

From USA Bank’s inception in December 2005 through its failure in July 2010, the FDIC
and/or the NYSBD executed or proposed three enforcement actions against the bank or
its Board directors.

2007 C&D. During the December 2006 Joint Examination, the regulators determined
that USA Bank was not in compliance with the conditions imposed by the FDIC’s Order
granting federal deposit insurance. Specifically, the regulators identified ineffective
Board and management oversight, several apparent violations, net losses substantially
greater than projected, and deviations from the approved business plan. On

April 27, 2007, the FDIC deemed USA Bank to be in a troubled condition2 and, together
with the NYSBD, issued parallel C&Ds that became effective on October 22, 2007. The
2
    Refer to the Glossary of Terms in Appendix 2 for the definition of an institution in troubled condition.


                                                        7
C&Ds addressed management and other issues related to the bank’s noncompliance with
the FDIC’s Order granting federal deposit insurance. Specifically, the C&Ds required the
bank to, among other things:

       Engage an independent third party to conduct an assessment of the bank’s
        management and staff.

       Immediately increase the participation of the Board in the affairs of the bank.

       Develop a comprehensive written business/strategic plan.

       Develop an internal audit program.

       Correct all violations of laws and/or regulations.

       Submit quarterly progress reports to the regulators.

Section 8(i)(2) CMP Action. During the December 2006 Joint Examination, the
regulators determined that USA Bank’s Board had not adequately supervised bank
management. Examiners noted that the Board failed to exercise sufficient oversight with
regard to laws and regulations, the conditions imposed by the FDIC’s Order granting
federal deposit insurance, and its fiduciary duties to the institution. As a result, on
April 7, 2008, the 11 original Board directors were notified that CMPs, under section
8(i)(2) of the FDI Act, were being imposed against them. Ten of the 11 original directors
stipulated to the CMPs totaling $228,000.3

2010 C&D. During the March 2009 Joint Examination (which was completed in
October 2009), examiners determined that the overall condition of USA Bank had
declined dramatically due to the deterioration of its asset quality. In response to
preliminary examination findings, in July 2009, the FDIC and NYSBD met with USA
Bank officials. At that meeting, the Board was advised to sell/merge the institution or
raise additional capital. The regulators also informed the Board that formal enforcement
actions would be forthcoming. In October 2009, the FDIC and the NYSBD presented the
Board with parallel C&Ds (later amended to Consent Orders). The bank’s Board would
not stipulate to the C&Ds, and on April 16, 2010, the FDIC filed a Notice of Charges
with the Office of Financial Institution Adjudication (OFIA)4 to counter the bank’s
refusal to stipulate. Because the NYSBD did not require the institution’s consent, the
NYSBD imposed its C&D on USA Bank on April 22, 2010. The NYSBD’s C&D
required the bank to address supervisory concerns related to capital, asset quality,
management, earnings, liquidity, and sensitivity to market risk. USA Bank was closed on
July 9, 2010, before the adjudication process was completed for the FDIC’s Notice of
Charges.

3
  The remaining Board director refused to stipulate to CMPs. However, the FDIC pursued a Notice of
Charges against the director for CMPs in the amount of $5,000.
4
  The OFIA is an office that houses administrative law judges who conduct adjudicatory hearings for the
federal financial institution regulatory agencies, including the FDIC.


                                                    8
The FDIC’s Application Review Process

Given the unusual circumstances involving the bank’s activities as a de novo institution
and the actions of a dominant official, we addressed the FDIC’s review of the bank’s
application for federal deposit insurance as part of our audit.

Under the FDI Act, the FDIC’s Board has responsibility for acting on all applications for
federal deposit insurance by all depository institutions. Within the FDIC, the Division of
Risk Management Supervision (RMS)5 has the responsibility for reviewing such
applications. As part of this responsibility, an RMS examiner conducts a field
investigation and prepares an ROI. Overall, the purpose of the ROI is to address the
likelihood of the success or failure of the institution. According to the FDIC’s Risk
Management Manual of Examination Policies, the final ROI should be comprehensive
and well supported and address any atypical attributes. The manual explains that
examiners should review the entire application and business plan to identify potential
problems, incomplete or inconsistent information, areas of non-compliance with federal
and state banking statutes, and any other factors that will require additional attention.

We reviewed the FDIC’s ROI, dated August 3, 2005, for USA Bank and determined that
it was prepared in compliance with section 6 of the FDI Act. Specifically, the ROI
addressed the seven statutory factors that must be considered by the FDIC in determining
the merits of an application and detailed the relevant facts pertinent to each of the
statutory factors. The examiner’s opinion as to whether the criteria under each area had
been met was favorable, and no negative findings requiring corrective action were
identified. The ROI’s Conclusions and Recommendations page included a description of
the proposal, a summary of each statutory factor, and an overall recommendation relative
to the granting of deposit insurance.

With respect to the reasons we conducted this IDR, the ROI addressed asset allocation
and sources of funding – areas in which the bank deviated from its business plan.
Additionally, the ROI addressed the potential impact of a dominant official at USA Bank.
A more complete discussion of the ROI’s coverage of these three areas is contained in the
following two sections of this report.

Supervisory Response to Risks Related to USA Bank’s Deviations from Its
Business Plan

Overall, the FDIC took early and definitive action with respect to certain identified risks
related to USA Bank’s deviation from its de novo business plan. In fact, before
conducting its first full-scope risk-management examination, the FDIC identified risks
and took action in an attempt to correct deficiencies at the bank. Specifically, in
October 2006 (just 9 months after the bank began operations and 3 months before the
first onsite examination), the FDIC was made aware of and became concerned that the

5
  Effective February 13, 2011, the Chairman of the FDIC announced several organizational changes as a
result of the Financial Reform Act. One such change was to re-name the Division of Supervision and
Consumer Protection as the Division of Risk Management Supervision.


                                                   9
bank had strayed from its approved business plan and took immediate action. For
example, the bank’s Board directors were asked to meet with FDIC and NYSBD officials
to discuss the regulators’ concerns regarding lapses in the Board’s corporate governance
and noncompliance with the bank’s de novo business plan. At that meeting, the
regulators reminded the Board directors of their fiduciary duties and liabilities and
directed the Board to hire an independent firm to conduct an assessment of the Board’s
corporate governance.

The December 2006 Joint Examination served to corroborate the regulators’ early
concerns. In the resulting examination report, the regulators concluded that USA Bank’s
Board had not governed with sufficient regard to: prevailing laws and regulations, the
conditions imposed by the Order granting federal deposit insurance, the NYSBD’s
stipulations for granting the Authorization Certificate (i.e., Charter), or the Board’s
fiduciary duties to the institution. At that examination, the regulators assigned the bank a
composite “4” rating, which is indicative of institutions exhibiting unsafe and unsound
banking practices or conditions.

The 2006 examination report stated that the bank’s Board and management failed to
comply with conditions requiring the timely submission of audited financial statements to
the FDIC and a requirement for notifying the FDIC’s Regional Director of proposed
material deviations or changes from the de novo business plan 60 days before the
consummation of the deviation or change. The examination report also identified
material deviations from the de novo business plan pertaining to the bank’s: entrance
into the mortgage-banking business through the formation of USA MBA, Inc.; leasing of
real estate associated with the mortgage-banking operation in Greenwich, Connecticut;
reliance on brokered deposits for nearly 50 percent of the institution’s funding sources;
and establishment of an administrative office. In the FDIC’s view, these unauthorized
deviations from the business plan directly contributed to the bank’s early deficiencies in
earnings.

As discussed earlier, the FDIC and the NYSBD pursued C&Ds and CMPs due, in part, to
the bank’s deviation from its approved business plan. This is noteworthy because,
according to New York Regional Office officials, there have been few cases where the
Corporation has pursued CMPs against a bank’s Board for unapproved deviations from a
de novo business plan.

Given that USA Bank’s failure was, to a large degree, caused by failings on the part of
the Board and management and losses in the institution’s ADC and CRE loan portfolios,
we also considered whether the bank had deviated from its business plan with respect to
the originations of such loans during the first year of operation. The 2006 examination
report includes a table that compares projected financial data in the bank’s federal deposit
insurance application to actual results as of December 31, 2006. The table identified
several variances, including the following:

      Total loan growth far exceeded USA Bank’s projection. Specifically, loans at
       December 31, 2006 totaled $71 million, which was $30 million greater than the



                                             10
       projected $41 million at the end of year 1. This represented a 73-percent
       variance.

      ADC loans at December 31, 2006 totaled about $14.5 million, which was
       $9.2 million (or 173 percent) more than the $5.3 million projected by the bank.

      Other CRE loans (i.e., multifamily residential properties and loans secured by
       nonfarm, nonresidential properties) totaled about $22.8 million at December 31,
       2006, which was $18.9 million (or 484 percent) more than the $3.9 million
       projected by the bank.

In addition, although total ADC and other CRE loans were projected to represent
22 percent of USA Bank’s loan portfolio at the end of the institution’s first year of
operation, the examination report indicated that such loans represented about 52 percent
of total loans. Such variances were indications that the bank was assuming increased
risk.

Further, examiners concluded in the December 2006 examination report that
“. . . underwriting practices and credit administration require substantial improvement.”
However, the FDIC assigned USA Bank an Asset Quality component rating of “2” –
indicative of satisfactory asset quality – and stated in the December 2006 examination
report that “[t]he level of adversely classified assets is low relative to both loans and
assets.” Additionally, the FDIC stated in the examination report that USA Bank’s total
adversely classified assets to total assets ratio was only .47 percent. RMS officials
indicated that the examination report took into account that underwriting practices and
credit administration needed improvement and that this was a factor in assigning a
Management component rating of “4.” RMS officials further pointed out that the
Management component comments in the examination report clearly reflected the Board
and management’s responsibility for the bank’s poor risk-management practices, credit
underwriting, and credit administration.

Another significant deviation from the business plan related to the bank’s projected
funding sources. Specifically, the ROI states, “[b]ank liabilities are projected to be
exclusively centered in core deposits; no borrowings or time deposits greater than
$100,000 are anticipated.” The table described above that identified variances between
the bank’s financial projections and actual results also showed a significant deviation
from the bank’s business plan with respect to funding. Specifically, although no
brokered deposits were projected as of the end of the first calendar year of operation, as
of December 31, 2006, such sources of funds totaled over $43 million, or 56 percent of
total deposits. Based on Call Report data, brokered deposits showed significant increases
in the second and third quarters of 2006, respectively. As noted earlier in the report, the
FDIC’s ROI for USA Bank’s deposit insurance application noted that the bank was “the
smallest competitor in the market.” Accordingly, there was increased risk from the
initiation of the bank’s operations that management would use brokered deposits to
support loan growth.




                                            11
According to the 2006 examination report, USA Bank was not successful in attracting
core deposits and instead relied on higher-cost brokered deposits to fund asset growth.
The 2006 examination report stated that the bank’s reliance on brokered funds was not
contemplated in the applications for deposit insurance or charter, and had not been
approved by the FDIC as a change to the bank’s business plan. The 2006 examination
report recommended that management enhance the bank’s funds management practices
by establishing targeted policy limits for (a) brokered deposits to total deposits and
(b) the bank’s net non-core funding dependence ratio and compare these policy limits to
actual results on a monthly basis.

Supervisory Response to Risks Related to USA Bank’s Dominant Official

The FDIC identified the proposed COB/CEO as a potential dominant official before the
bank was established. Specifically, the ROI for USA Bank, which is dated August 3,
2005—almost 5 months before the bank began operations—noted that the individual who
would eventually become the COB/CEO was the spokesperson, dominant individual, and
central figure in the establishment of the bank and organization of the Board. However,
according to the ROI, interviews conducted with proposed Board directors tempered the
FDIC’s concerns about the COB/CEO’s potential dominance because all proposed Board
directors were adamant that they possessed the requisite strength and character to provide
for a Board with the appropriate checks and balances. The FDIC’s position appears to be
supported by the banking experience of the proposed Board directors, as documented in
the ROI.

There is evidence that the FDIC had concerns soon after USA Bank began operations that
the individual who held the positions of COB and CEO was a dominant official. These
concerns are reflected in the following excerpts from the December 2006 examination
report.

       The Board has given Chairman and CEO . . . much latitude in setting the direction
       and goals for the bank and in leading management, apparently without appropriate
       monitoring, evaluation, or adjustment to the processes employed or the results
       achieved. [The COB/CEO] has dominated the daily affairs of the bank and is,
       along with the Board, responsible for the condition of the institution.

       [T]he Board nonetheless abdicated its responsibilities to [the COB/CEO].

       Effective oversight and leadership are sorely needed to provide better direction,
       management efficiency, and motivation to the institution. Cost controls must be
       strengthened immediately, and operating results must be improved substantially to
       avoid further capital deterioration. Regulatory concerns, management
       deficiencies, and corrective recommendations requiring Board attention are noted
       throughout this Report.

According to the FDIC, a consequence of the Board’s inadequate supervision was that
too much influence was ceded to the COB/CEO. The FDIC also concluded that the
COB/CEO was primarily responsible for the deteriorating condition of the institution.


                                            12
Based in large measure on the concerns identified by FDIC and NYSBD examiners, the
dominant official resigned as CEO on April 26, 2007, soon after the completion of field
work on the December 2006 examination. However, the individual continued to serve as
COB and head of the Loan Committee. FDIC officials contacted the institution’s
President during the February 2008 examination and indicated that, due to continued
concerns with management, it would be in the bank’s best interest for the COB to resign.
On May 2, 2008, the COB resigned. Thereafter, this individual’s role was that of a
shareholder. Based on documentation provided to the FDIC, many of the loans that
eventually caused the bank to fail were already on the bank’s books when the COB/CEO
resigned as the COB.

Lessons Learned

Overall, with respect to USA Bank’s deviations from its de novo business plan and the
activities of the dominant official, the FDIC identified the associated risks and took
definitive supervisory actions. These actions, however, could not sufficiently mitigate
the substantial risk created by the bank’s early and unanticipated change in a focus on
ADC and CRE lending – the primary reason why USA Bank failed.

As noted in the OIG report entitled, Follow-up Audit of FDIC Supervision Program
Enhancements (Report No. MLR-11-010, dated December 23, 2010), the OIG has
identified in past MLR reports unique issues associated with “de novo” institutions. Such
issues include the need for the FDIC to monitor business plans closely and to consider
growth that exceeds business plan projections as a risk to be managed. In addition, these
institutions relied heavily on wholesale funding sources including, but not limited to,
brokered deposits and Federal Home Loan Bank Board borrowings to fund aggressive
asset growth.

As it relates to the supervision of de novo institutions, the FDIC has issued guidance to
examiners entitled, Deposit Insurance Application Processing and De Novo Institution
Supervision and Examination Guidance, dated August 26, 2009, and to state nonmember
financial institutions in Financial Institution Letter (FIL) 50-2009 entitled, Enhanced
Supervisory Procedures for Newly Insured FDIC-Supervised Depository Institutions.
This guidance addresses various issues related to the supervision of de novo banks that
are discussed in prior MLR reports. The guidance acknowledges that (1) depository
institutions insured for less than 7 years had been over-represented in the institutions that
failed during 2008 and 2009, with most of those failures occurring between the fourth
and seventh years of operation, and (2) a number of newly insured institutions had
pursued changes in business plans during the first few years of operation, which, in some
cases, led to increased risk and financial problems when the banks’ controls and risk
management practices were inadequate.

The guidance also addresses the following:

      Review and approval of applications and business plans, monitoring of
       compliance with business plans and regulatory orders, and determination of
       material deviations from approved business plans;


                                             13
      Prior approval of material changes to business plans;

      Recognition of associated risks;

      Examination cycles for risk management, compliance, and Community
       Reinvestment Act evaluations and examiner follow-up between examinations;

      Extension of the de novo period from the first 3 years to the first 7 years of a
       bank’s operations for examinations, capital, and other requirements; and

      Consideration of supervisory actions, when determined appropriate.

Further, the FDIC has increased its use of offsite monitoring for de novo banks. Tools
used to monitor de novo banks include a De Novo Tracking Module, developed in 2007,
to facilitate variance analysis between banks’ initial financial projections and actual
performance over the first 3 to 5 years of operation. In addition to the tracking module,
the FDIC will continue to use other offsite review techniques for monitoring de novo
banks, including the Statistical CAMELS Off-site Rating, Real Estate Stress Test, and
Growth Monitoring System indicators. Additionally, according to the FDIC, in April
2008, in part because of what happened at USA Bank, the New York Regional Office
sent cautionary letters to all de novo banks in the region reminding them of the banks’
obligations to provide the region with advance notice of any planned business plan
changes.

With respect to risks associated with ADC and CRE lending, the FDIC has, among other
things, provided training to its examination workforce wherein the importance of
assessing an institution’s risk management practices on a forward-looking basis was
emphasized. The Corporation also issued supervisory guidance in 2008 addressing risks
associated with this type of lending entitled, Managing Commercial Real Estate
Concentrations in a Challenging Environment.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all insured depository
institutions. The section requires regulators to take progressively more severe actions,
known as “prompt corrective actions,” as an institution’s capital level deteriorates. The
purpose of section 38 is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules
and Regulations defines the capital measures used in determining the supervisory actions
that will be taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also
establishes procedures for the submission and review of capital restoration plans and for
the issuance of directives and orders pursuant to section 38. The FDIC is required to
closely monitor the institution’s compliance with its capital restoration plan, mandatory
restrictions defined under section 38(e), and discretionary safeguards imposed by the
FDIC (if any) to determine if the purposes of PCA are being achieved.



                                             14
Based on the supervisory actions taken with respect to USA Bank, we determined that the
FDIC properly implemented applicable PCA provisions of section 38. A summary of
relevant PCA-related activities follows.

USA Bank was considered Well Capitalized at its March 2009 joint examination. The
bank remained Well Capitalized until the June 30, 2009 Call Report was released. The
Call Report showed that the bank had become Adequately Capitalized. The bank’s
capital category then fell in each successive quarter until the bank became Critically
Undercapitalized as of March 31, 2010.

On August 19, 2009, USA Bank was informed that its capital category had dropped to
Adequately Capitalized. As an Adequately Capitalized institution, USA Bank was not
permitted to accept, renew, or roll over any brokered deposits unless it obtained a waiver
from the FDIC. On December 8, 2009, the FDIC notified USA Bank that it had fallen to
Undercapitalized based on the institution’s September 31, 2009 Call Report. The FDIC’s
notification required the bank to submit a capital restoration plan within 30 days. In early
January 2010, a representative of the bank contacted the FDIC’s New York Regional
Office and requested an extension until January 22, 2010 to submit a capital restoration
plan. The Regional Office granted the extension, as allowed by section 38(e)(2) of PCA,
and USA Bank submitted its capital restoration plan on that date. On February 1, 2010,
while the FDIC was reviewing the bank’s capital restoration plan, the bank was notified
that it was Significantly Undercapitalized, based on the December 31, 2009 Call Report.

On March 2, 2010, the New York Regional Office notified the bank that its capital
restoration plan was not acceptable because, among other things, the plan did not contain
sufficient detail regarding the bank’s plans for raising $15 million in needed capital. The
New York Regional Office requested that the bank submit a revised capital restoration
plan within 30 days. The bank advised the regional office that it had not received the
FDIC’s notification of the plan’s disapproval until March 19, 2010 and that the deadline
for submitting a revised plan should take the associated delay into consideration. As a
result, the New York Regional Office approved an April 19, 2010 deadline for a revised
capital restoration plan. On April 19, 2010, the bank submitted a revised capital
restoration plan. The bank was notified on May 3, 2010 that it had become Critically
Undercapitalized for PCA purposes as of March 31, 2010.

As part of the revised capital restoration plan, a third party filed a Change of Control
application with the NYSBD on May 6, 2010. The capital restoration plan was
predicated on the third party infusing $16 million in new capital in the bank. However, in
a May 12, 2010 conference call, the New York Regional Office informed both bank and
the third-party representatives that the $16 million in capital was inadequate and that the
revised plan would not be approved. On June 24, 2010, the third party submitted a
revised investor group business/recapitalization plan. In a letter dated July 9, 2010, the
New York Regional Office advised the third party that the revised plan was unacceptable
because it contained a number of critical weaknesses, including an insufficient amount of
capital to be injected into the bank. The NYSBD closed the bank that same day.




                                            15
OIG Evaluation of Corporation Comments
The Director, RMS, provided a written response, dated June 24, 2011, to a draft of the
report. The response is provided in its entirety as Appendix 4 of this report.
In its response, RMS attributed USA Bank’s failure to inadequate Board and
management oversight, weak loan underwriting and credit administration, and an
aggressive strategy centered in CRE and ADC lending. The response reiterated
statements in the report that the institution’s deviation from its approved business plan
and the actions of a dominant official were significant factors contributing to the failure.
In addition, the response described key supervisory actions, described in the report, that
the FDIC and the NYSBD took to address the bank’s weak risk management practices,
including the institution’s deviations from the approved business plan and the Board’s
lack of oversight and ceding responsibility to a dominant official.

The response stated that USA Bank’s failure demonstrates why stringent supervisory
attention is needed for de novo institutions and that the FDIC has extended the annual
full-scope examination requirement for such institutions from 3 to 7 years. According to
the response, de novo business plans receive careful analysis prior to an institution’s
opening and are closely monitored against approved financial projections throughout the
7-year period. Additionally, a Financial Institution Letter entitled, Enhanced Supervisory
Procedures for Newly Insured FDIC-Supervised Depository Institutions, was issued in
August 2009 that describes the program changes for de novo institutions and warns that
changes in business plans undertaken without required prior approval may subject an
institution or its insiders to civil money penalties.




                                             16
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

Objectives

On July 21, 2010, the President signed into law the Financial Reform Act. The Financial
Reform Act amends section 38(k) of the FDI Act by increasing the threshold for an MLR
from $25 million to $200 million for losses that occur for the period January 1, 2010
through December 31, 2011. The Financial Reform Act also requires the OIG to review
all other losses incurred by the DIF to determine (a) the grounds identified by the state or
federal banking agency for appointing the Corporation as receiver and (b) whether any
unusual circumstances exist that may warrant an in-depth review of the loss. Although
the estimated loss for USA Bank did not meet the threshold requiring an MLR, the OIG
determined that an IDR of the failure of USA Bank was warranted as authorized by the
Financial Reform Act.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this IDR were to (1) determine the causes of USA Bank’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of USA Bank, including
the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act. Based
on preliminary scoping work, we decided to focus our audit procedures on the FDIC’s
review of USA Bank’s application for deposit insurance, the bank’s deviation from its
business plan, and the actions of a dominant bank official.

We conducted this performance audit from December 2010 through April 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of USA Bank’s operations from
December 2005 until its failure on July 9, 2010. Our review also entailed an evaluation
of the regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

      Reviewed and/or analyzed examination and visitation reports prepared by the
       FDIC and the NYSBD from 2006 to 2010.

      Reviewed the following:

             Bank data in UBPRs, Call Reports, and ViSION.

             FDIC and NYSBD correspondence.


                                           17
                                                                             Appendix 1

                    Objectives, Scope, and Methodology

             The FDIC’s ROI and related documentation pertaining to USA Bank’s
              application for federal deposit insurance.

             The failing bank case for USA Bank presented to the FDIC’s Board of
              Directors.

             Pertinent FDIC policies, procedures, and guidance, and various banking laws
              and regulations.

We also interviewed FDIC examiners who participated in the various examinations of
USA Bank and an FDIC Field Office official responsible for supervisory oversight.
Additionally, we contacted officials from the NYSBD to discuss the institution’s
examinations and other activities regarding the State’s supervision of the bank.

We performed the audit work at the OIG’s offices in Arlington, Virginia.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in RMS systems, reports,
examination reports, and interviews of examiners to gain an understanding of USA
Bank’s management controls pertaining to causes of failure and loss as discussed in the
body of this report.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems used to support our audit
conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this IDR, we did not assess the strengths and weaknesses
of RMS’s annual performance plan in meeting the requirements of the Results Act
because such an assessment is not part of the audit objectives. RMS’s compliance with
the Results Act is reviewed in program audits of RMS operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and of the FDIC’s Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we


                                          18
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.


Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR and IDR reports related to failures of FDIC-supervised institutions, and these
reports can be found at www.fdicig.gov. In addition, the OIG issued an audit report
entitled, Follow-up Audit of FDIC Supervision Program Enhancements (Report
No. MLR-11-010), in December 2010. The objectives of the audit were to (1) determine
the actions that the FDIC has taken to enhance its supervision program since May 2009,
including those specifically in response to the May 2009 memorandum, and (2) identify
trends and issues that have emerged from subsequent MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in
May 2010, the OIG initiated an evaluation of the role and federal regulators’ use of the
Prompt Regulatory Action provisions of the FDI Act (section 38, Prompt Corrective
Action and section 39, Standards for Safety and Soundness) in the banking crisis.




                                           19
                                                                                Appendix 2

                             Glossary of Terms


Term                                             Definition
Acquisition,    ADC loans are a component of CRE that provide funding for acquiring and
Development,    developing land for future construction and that provide interim financing
and             for residential or commercial structures.
Construction
(ADC) Loans
Adversely       Assets subject to criticism and/or comment in an examination report.
Classified      Adversely classified assets are allocated on the basis of risk (lowest to
Assets          highest) into three categories: Substandard, Doubtful, and Loss.

Call Report     Reports of Condition and Income, often referred to as Call Reports, include
                basic financial data for insured commercial banks in the form of a balance
                sheet, an income statement, and supporting schedules. According to the
                Federal Financial Institutions Examination Council’s (FFIEC) instructions
                for preparing Call Reports, national banks, state member banks, and insured
                nonmember banks are required to submit a Call Report to the FFIEC’s
                Central Data Repository (an Internet-based system used for data collection)
                as of the close of business on the last day of each calendar quarter.

Cease and       A C&D is a formal enforcement action issued by a financial institution
Desist Order    regulator, pursuant to 12 United States Code, section 1818, to a bank or
(C&D)           affiliated party to stop an unsafe or unsound practice or a violation of laws
                and regulations. A C&D may be terminated when the bank’s condition has
                significantly improved and the action is no longer needed or the bank has
                materially complied with its terms.

Commercial      CRE loans are land development and construction loans (including 1-to-4
Real Estate     family residential and commercial construction loans) and other land loans.
(CRE) Loans     CRE loans also include loans secured by multifamily property and nonfarm
                nonresidential property, where the primary source of repayment is derived
                from rental income associated with the property or the proceeds of the sale,
                refinancing, or permanent financing of the property.

Concentration   A concentration is a significantly large volume of economically related
                assets that an institution has advanced or committed to a certain industry,
                person, entity, or affiliated group. These assets may, in the aggregate,
                present a substantial risk to the safety and soundness of the institution.

De novo Bank    A de novo bank is a newly established bank that is in its first 7 years of
                operation. De novo banks are subject to additional supervisory oversight
                and regulatory controls, including the development and maintenance of a
                current business plan and increased examination frequency.




                                         20
                                                                                Appendix 2

                              Glossary of Terms


FDIC’s           The FDIC’s supervision program promotes the safety and soundness of
Supervision      FDIC-supervised institutions, protects consumers’ rights, and promotes
Program          community investment initiatives by FDIC-supervised institutions. RMS
                 (1) performs examinations of FDIC-supervised institutions to assess their
                 overall financial condition, management policies and practices (including
                 internal control systems), and compliance with applicable laws and
                 regulations and (2) issues related guidance to institutions and examiners.

Growth           GMS is an offsite rating tool that identifies institutions experiencing rapid
Monitoring       growth or having a funding structure highly dependent on non-core funding
System (GMS)     sources.

Material Loss    As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                 Financial Reform Act, for the period beginning January 1, 2010 and ending
                 December 31, 2011, a material loss is defined as any estimated loss in
                 excess of $200 million.

Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the DIF. Part 325,
Action (PCA)     subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                 Regulations, section 325.101, et. seq., implements section 38, Prompt
                 Corrective Action, of the FDI Act, 12 United States Code, section 1831(o),
                 by establishing a framework for determining capital adequacy and taking
                 supervisory actions against depository institutions that are in an unsafe or
                 unsound condition. The following terms are used to describe capital
                 adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                 (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                 Undercapitalized. A PCA Directive is a formal enforcement action seeking
                 corrective action or compliance with the PCA statute with respect to an
                 institution that falls within any of the three categories of undercapitalized
                 institutions.

Real Estate      REST attempts to simulate what would happen to banks today if they
Stress Test      encountered a real estate crisis similar to that of New England in the early
(REST)           1990s. REST uses statistical techniques to forecast an institution’s
                 condition over a 3- to 5-year horizon and provides a single rating from 1 to
                 5 in descending order of performance quality.

Statistical      SCOR is a financial model that uses statistical techniques, offsite data, and
CAMELS           historical examination results to measure the likelihood that an institution
Offsite Rating   will receive a CAMELS downgrade at the next examination.
(SCOR) System




                                         21
                                                                                 Appendix 2

                              Glossary of Terms


Substandard     One of three types of classifications used by examiners to describe
                adversely classified assets. The term is generally used to describe an asset
                that is inadequately protected by the current sound worth and paying
                capacity of the obligor or of the collateral pledged, if any. Substandard
                assets have a well-defined weakness or weaknesses that jeopardize the
                liquidation of the debt. Substandard assets are characterized by the distinct
                possibility that the institution will sustain some loss if the deficiencies are
                not corrected.

Troubled        According to section 303.101(c) of the FDIC’s Rules and Regulations,
Condition       troubled condition means any insured depository institution that: (1) has a
                composite rating in its most recent examination report of 3 (only for insured
                depository institutions with total consolidated assets of $10 billion or
                greater), 4, or 5 under UFIRS; (2) is subject to a proceeding initiated by the
                FDIC for termination or suspension of deposit insurance; (3) is subject to a
                C&D or written agreement that requires action to improve the financial
                condition of the institution or is subject to a proceeding which contemplates
                the issuance of an order that requires action to improve the financial
                condition of the institution; (4) is informed in writing that it is in troubled
                condition on the basis of the institution's most recent Call Report or report
                of examination, or other information available to the institution's regulator;
                or (5) is determined by the institution’s regulator or the FDIC in
                consultation with the institution’s regulator to be experiencing a significant
                deterioration of capital or significant funding difficulties or liquidity stress,
                notwithstanding the composite rating of the institution in its most recent
                report of examination.

Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)   The report is produced by the FFIEC for the use of banking supervisors,
                bankers, and the general public and is produced quarterly from Call Report
                data submitted by banks.

Uniform         Financial institution regulators and examiners use the UFIRS to evaluate a
Financial       bank’s performance in six components represented by the CAMELS
Institutions    acronym: Capital adequacy, Asset quality, Management practices,
Rating System   Earnings performance, Liquidity position, and Sensitivity to market risk.
                Each component, and an overall composite score, is assigned a rating of 1
(UFIRS)
                through 5, with 1 having the least regulatory concern and 5 having the
                greatest concern.




                                         22
                                                                               Appendix 3

                                   Acronyms


ADC      Acquisition, Development, and Construction

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to
         Market Risk

CEO      Chief Executive Officer

CMP      Civil Money Penalties

COB      Chairman of the Board

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

FDI      Federal Deposit Insurance

FFIEC    Federal Financial Institutions Examination Council

IDR      In-Depth Review

MLR      Material Loss Review

NYSBD    New York State Banking Department

OFIA     Office of Financial Institution Adjudication

OIG      Office of Inspector General

PCA      Prompt Corrective Action

RMS      Risk Management Supervision

ROI      Report of Investigation

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System

ViSION   Virtual Supervisory Information on the Net




                                       23
                                                                                Appendix 4

                     Corporation Comments
   _________________________________________________________



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                        Division of Risk Management Supervision

                                                                              June 24, 2011
TO:               Mark Mulholland
                  Deputy Assistant Inspector General for Audits

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          FDIC Response to the Draft Audit Report Entitled, In-Depth Review of the Failure
                  of USA Bank, Port Chester, NY (Assignment No. 2010-013)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank
Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s
Office of Inspector General (OIG) conducted an In-Depth Review of the Failure of USA Bank,
which failed on July 9, 2010. This memorandum is the response of the Division of Risk
Management Supervision (RMS) to the OIG’s Draft Report (Report) received on May 17, 2011.

USA Bank failed due to inadequate management and Board oversight, weak loan underwriting and
credit administration, and an aggressive strategy centered in commercial real estate (CRE) and
acquisition, development and construction (ADC) lending. Management’s decision to concentrate
in CRE lending, and in particular speculative, high-end construction loans, led to severe asset
quality issues, critically deficient earnings performance, and an inadequate capital position. The
Report also stated that USA Bank’s deviation from its approved business plan and the actions of a
dominant official were significant factors contributing to the failure.

From the time of USA Bank’s opening in 2005 until it was closed, the FDIC and the New York
State Banking Department (NYSBD) performed three examinations and six visitations. The first
examination of this de novo institution in December 2006 revealed the Board had not provided
sufficient oversight and turned over their responsibilities to the dominant Chairman of the Board
and Chief Executive Officer. USA Bank deviated from its original business plan soon after it
opened, resulting in early operational losses. Based on the 2006 examination findings the FDIC
designated USA Bank in troubled condition. Subsequent to this examination and until closing, both
the FDIC and NYSBD imposed several formal enforcement actions. USA Bank was unable to fully
comply and unable to obtain required capital to maintain operations.

The failure of USA Bank demonstrates why stringent supervisory attention is necessary for de novo
institutions. RMS has extended its supervisory program so these institutions receive a full scope
examination every year for seven years, as opposed to three years. De novo business plans receive
careful analysis prior to an institution’s opening and are closely monitored against approved
financial projections throughout the seven year period. A Financial Institution Letter, Enhanced
Supervisory Procedures for Newly Insured FDIC-Supervised Depository Institutions issued in
August 2009 describes the program changes for de novo institutions and warns that changes in
business plans undertaken without required prior approval may subject an institution or its insiders
to civil money penalties.

Thank you for the opportunity to review and comment on the Report.


                                                  24
